No. 20-1261
IN THE SUPREME COURT OF THE UNITED STATES
_________________
WI-LAN, INC., ET AL., PETITIONERS
v.
DREW HIRSHFELD, ACTING UNDER SECRETARY OF
COMMERCE FOR INTELLECTUAL PROPERTY AND
DIRECTOR, U.S. PATENT AND TRADEMARK OFFICE
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE RESPONDENT IN OPPOSITION, via e-mail and first-class mail,
postage prepaid, this 12th day of May 2021.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contain 1,828 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct. Executed on
May 12, 2021

Elizabeth B. Prelogar
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
May 12, 2021
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Case
Management Supervisor, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

20-1261
WI-LAN, INC., ET AL.
DREW HIRSHFELD, ACTING UNDER SECRETARY
OF COMMERCE FOR INTELLECTUAL PROPERTY
AND DIRECTOR, UNITED STATES PATENT AND
TRADEMARK OFFICE

RUTHANNE M. DEUTSCH
DEUTSCH HUNT PLLC
300 NEW JERSEY AVE. NW
SUITE 900
WASHINGTON, DC 20001
202-868-6915
RDEUTSCH@DEUTSCHHUNT.COM
DOUGLAS RON WILSON
ARMOND WILSON LLP
895 DOVE STREET
SUITE 300
NEWPORT BEACH, CA 92660
949-851-4779
DOUG.WILSON@ARMONDWILSON.COM

